        NEW YORK FLIGHT DELAYS
HAVE THREE MAIN CAUSES, BUT MORE WORK
             IS NEEDED TO
 UNDERSTAND THEIR NATIONWIDE EFFECT

       Federal Aviation Administration
        Report Number AV-2011-007
        Date Issued: October 28, 2010
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: New York Flight Delays Have Three                Date:    October 28, 2010
           Main Causes, but More Work Is Needed To
           Understand Their Nationwide Effect
           Federal Aviation Administration
           Report Number AV-2011-007

  From:    Lou E. Dixon                                          Reply to
                                                                 Attn. of:   JA-1
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Aviation Administrator

           During the summer of 2007, the United States experienced record-setting flight
           delays, with nearly one in three domestic flights either delayed or cancelled. The
           New York region’s three largest airports—Kennedy, LaGuardia, and Newark—led
           the Nation with over 40 percent of arriving flights either delayed or cancelled.
           Although the overall situation improved somewhat in 2009, this region continued
           to report nearly one-third of its flights as delayed or cancelled. Such delays not
           only pose a significant problem for air travelers in the New York region but also
           affect passengers flying to other parts of the country.

           The Chairman of the House Subcommittee on Aviation requested that we
           (1) determine the principal causes of flights delays in the New York region and
           (2) identify the corresponding effect of these delays nationwide. We conducted
           the audit from June 2009 through August 2010 in accordance with government
           auditing standards prescribed by the Comptroller General of the United States.
           We based our observations and conclusions on interviews with Federal Aviation
           Administration (FAA), air carriers, and the Port Authority of New York and New
           Jersey as well as our analysis of air traffic and delay data collected by FAA and
           the Department of Transportation’s (DOT) Bureau of Transportation Statistics
           (BTS). Exhibit A details our audit scope and methodology.
                                                                                                                     2


RESULTS IN BRIEF
Flight delays have been a significant problem for the New York region for many
decades. 1 While various factors have contributed to this problem, the three
principal causes are a small and densely occupied airspace, limited capacity
among the region’s three main airports, and continued growth in air traffic. FAA
first attempted to manage flight delays at LaGuardia, Newark, and Kennedy in
1970 using flight limits (or caps) under the High Density Rule, 2 but those limits
were phased out between 2000 and 2007. 3 While the phase-out had noticeable
benefits, such as reduced air fares and service to new markets due to increased
competition, it also led to record levels of flight delays for the New York region.
To prevent delays from getting worse, FAA reintroduced flight caps in 2008. Yet,
these new caps have done little to reduce delays at New York because FAA based
the caps on the airports’ 2007 operating levels—despite record delays—and did
not establish an on-time performance target. For flight caps to have more success
in preventing delays from again rising to record levels, FAA will need to
reexamine them, basing them on realistic airport operating conditions, air carrier
scheduling practices, and an acceptable rate of delay. 4

While there is substantial agreement within the aviation community that New
York delays have a propagation (i.e., ripple) effect across the Nation, the extent
and nature of their impact are largely unknown. 5 FAA and others’ attempts to
measure the ripple effect have been hampered by the volume, complexity, and
limitations of existing flight data and analytic methods as well as insufficient
leadership and coordination among research groups studying this issue. Although
FAA has initiated two projects to measure delay propagation, additional work
remains before either will prove to be useful analyses of delay propagation. As a
result, no one fully understands the impact of New York flight delays nationwide,
whether New York airports absorb or generate delays, or what other airports are
affected and to what degree. Gaining a greater understanding of the dynamics 6 of
flight delays and their nationwide impact will aid FAA’s efforts to reduce flight

1
    The U.S. Department of Transportation (DOT) defines a flight as delayed when it arrives more than 15 minutes after
    its published arrival time.
2
    In 1969, FAA imposed flight limits through the High Density Rule, due to concerns with aviation safety, congestion,
    and flight delays at New York and other large airports. The High Density Rule established limits on the number of
    hourly flight operations at all three major New York area airports (and Chicago O’Hare and Reagan National),
    although Newark was soon exempted in 1970.
3
    The Wendell H. Ford Aviation Investment and Reform Act for the 21st Century (AIR-21), Pub. L. No. 106-181
    (2005). This law called for the phase-out of the High Density Rule at LaGuardia and Kennedy airports by granting
    exemptions beginning with passage of the law on April 5, 2000, and eventual repeal of the rule at the two airports
    effective January 1, 2007.
4
    A rate of delay is the percent of flights delayed.
5
    Delay propagation refers to the ripple effect of an initial delay on subsequent flights of the same aircraft.
6
    To measure dynamics of flight delays, various factors need to be considered, including cause and location of initial
    delay, duration of delay by type of cause, aircraft turnaround time (i.e., the duration of ground time between an
    aircraft’s scheduled arrival and next departure), and delay absorption or generation (i.e., an airport’s tendency to
    reduce or increase an aircraft’s amount of delay).
                                                                                                                          3


delays and congestion, better manage air traffic, and improve investment
decisions.

We are recommending that FAA reexamine its flight caps, enhance existing flight
data, and develop a viable methodology for understanding the propagation effects
of flight delays.

BACKGROUND
For more than 40 years, the New                          Figure 1. Typical Daily Flight Itineraries for Aircraft
York region has comprised one                              Going Into and Out of Three New York Airports
of the most congested and
delayed aviation areas in the
United States. During a typical
summer       day,   more     than
1,400 aircraft fly through the
3 main New York airports (i.e.,
Kennedy,        LaGuardia,    and
Newark), and almost a third of
those aircraft fly through
multiple times. These aircraft
complete a total of 5,400 flights
across the country and around the
globe, landing at 122 domestic
airports and 52 foreign countries                       Source: FAA and BTS
(see figure 1).

This high flight volume, coupled with dense airspace and limited capacity, have
resulted in the 3 New York airports experiencing the highest delay rate among the
55 major U.S. airports. The situation has worsened over the last decade, with
35 percent of flights delayed in 2008 compared to the already high 29 percent in
1999. 7 These delays not only affect aircraft travelling to and from the region but
can also create a ripple effect as those aircraft fly throughout the Nation.

Since 2000, we have issued a number of reports and testified before Congress on
the growing number of flight delays, air carrier customer service, and air traffic
congestion both in New York and nationwide. Our most recent report, issued last
year, examined FAA’s progress in implementing the New York Aviation
Rulemaking Committee’s (ARC) 77 initiatives for reducing delays and congestion


7
    Our analysis focused on operations and delays at the three largest New York airports from 1999 through 2008. In
    1999, FAA had not yet begun phasing out flight limits at Kennedy and LaGuardia; subsequent data through 2008
    show the effects of the final statutory removal of the flight limits in 2007 and the first year of newly reimposed limits
    by FAA at Kennedy and Newark.
                                                                                                                      4


in the New York area. 8 We concluded that many of the ARC 77 initiatives had not
been fully implemented or were used infrequently and thus had little impact on the
delay situation. (See exhibit B for a full list of our reports and testimonies related
to flight delays in the New York region.)

PRINCIPAL CAUSES OF NEW YORK FLIGHT DELAYS ARE
DENSE AIRSPACE, LIMITED AIRPORT CAPACITY, AND HIGH AIR
TRAFFIC DEMAND
The principal causes of New York flight delays are crowded airspace, airport
capacity constraints, and continued growth in air traffic. Together, these factors
have caused the New York                Figure 2. Flight Delays at the 3 Primary
airports to experience higher      New York Airports Versus 52 Other Large Airports
levels of flight delays than                      FY 1998 to FY 2009
the Nation’s other large
airports (see figure 2). The
phase-out of flight limits or
caps (i.e., FAA’s High
Density Rule) between 2000
and 2007 at LaGuardia and
Kennedy9 contributed to the
growth in air traffic and
subsequent congestion and
delays.    FAA’s efforts in
2008 to mitigate delays by
reinstating flight caps at
Kennedy      and      Newark,
however, yielded little improvement. 10 This is because FAA based its caps on the
maximum capacity experienced at the airports during 2007—a year with record
delays—and did not use an on-time performance target (i.e., acceptable rate of
delays) for determining airports’ realistic capacity. While delays have declined
during the recent economic recession, flight volume and delays will likely return
as the economy recovers.




8
     OIG Report Number AV-2010-003, “Status of the Aviation Rulemaking Committee’s 77 Initiatives for Reducing
     Delays in the New York Area,” October 21, 2009. OIG reports are available on our website: www.oig.dot.gov.
9
     While this action led to an 8-percent increase in flights serving New York, the actual number of passenger seats
     declined by 0.6 percent as carriers substituted larger aircraft with regional jets.
10
     FAA had already imposed new flight limits at LaGuardia in 2001, because the phase-out of the airport’s caps in 2000
     led to rapid growth in flights and delays.
                                                                                                                      5


Principal Causes of the New York Region’s Flight Delays
Dense New York Airspace: New York’s airspace is one of the densest in the
country due to the close proximity of the three major airports and the high volume
and complexity of flight operations. Kennedy, LaGuardia, and Newark airports
are compressed into less than 100 square miles—an area slightly larger than
Washington, DC. This close proximity creates a high degree of operational inter-
dependence among the three airports, with changes at one airport frequently
impacting flight operations (both on the ground and in the air) at the other two.

For example, changing weather              Table 1. Comparison of Delay Causal
conditions (e.g., wind patterns) may         Factors June through August 2009
require one airport to use a different                           3 NY    52 Other
runway configuration, which in turn     Causal Factor          Airports Airports
can impact the surrounding airspace     Weather                  51%        21%
and aircraft operations at the other    Volume                   10%         6%
two airports. The congested airspace    Late Arriving Aircraft   20%        36%
also requires close attention to        Air Carrier              15%        26%
spacing between aircraft, which can     Other                      4%       11%
add further time (and delays) to         Total                  100%       100%
affected flights. Thus, it is not Source: OIG analysis of DOT data
surprising that nearly two-thirds of
flight delays at the three New York airports are attributable to weather and high
volume (congestion)—twice that of the other 52 largest airports that FAA tracks
(see table 1).

Further, the three New York airports together represent the most heavily used
combination of airports in a single metropolitan area in the Nation. During a
typical summer day, more than 3,500 flights—involving 1,400 aircraft—begin or
end at 1 of these airports. Moreover, the New York Terminal Radar Approach
Control (TRACON), which manages flights into, out of, and through the New
York region, handles nearly 2 million flights per year, second only to the Southern
California TRACON. 11 Likewise, the New York Air Route Traffic Control Center
(ARTCC) 12 manages the densest en route airspace on either side of the Atlantic.13
In addition to the flights landing at and taking off from the three major airports,




11
     TRACONs are FAA facilities that guide aircraft approaching and departing airports generally within a 30- to 50-mile
     radius up to an altitude of 10,000 feet as well as aircraft that may be flying through that airspace.
12
     ARTCCs control aircraft primarily during the en route (i.e., high altitude) phase of the flight, and the New York
     ARTCC is responsible aircraft flying over five states and much of the North Atlantic.
13
     The calculation of New York ARTCC’s airspace density does not include the oceanic portion.
                                                                                                                           6


the New York TRACON and ARTCC handle aircraft using more than a dozen
nearby airports as well as those flying through the New York airspace. 14

The rapid growth in regional jet operations has further compounded the density
and complexity of the New York airspace. Since 1999, air carriers have increased
their use of regional jets (i.e., 35-100 seats) by 500 percent at the New York
airports, replacing nearly all turboprop aircraft as well as some larger jets. 15 The
increased use of regional jets, however, was not without some negative
repercussions, as the smaller jets—unlike turboprops—occupy the same airspace
and use the same runways as larger jet aircraft. In effect, the influx of regional jets
has further saturated New York’s already crowded airspace, routings, and
runways, while those formerly occupied by turboprop aircraft are now used less.

Limited Airport Capacity: Due to significant space and operational constraints,
Kennedy, LaGuardia, and Newark are severely limited in the number of flights
that they can safely and efficiently accommodate (i.e., capacity). Although new
technology and procedures can enhance airport capacity, new runways typically
bring the greatest increase. Yet, the last new runway added at any of the New
York major airports occurred at Newark in the early 1970s, and there are no plans
to add any new ones. For example, an August 2007 Port Authority of New York
and New Jersey (Port Authority) study determined it was not feasible to construct
a new runway at Kennedy, although it proposed several smaller capacity
improvements (e.g., additional runway extensions and taxiway improvements).
The study concluded that any new runway project would not only be very costly
and controversial but also extremely difficult to advance as it would be built
within a protected environmental area. In contrast, 17 other major airports across
the Nation have added new runways since 1999. These include busy airports such
as Chicago O’Hare, Atlanta Hartsfield, Boston Logan, and Washington Dulles.
While the existing New York airspace may be used more efficiently in the future
due to FAA’s ongoing airspace redesign, the Agency states that this project will
not increase airport capacity.

Increases in Air Traffic Demand: Over the last decade, flight demand in the
New York region has grown considerably. Between 1999 and 2008, the number
of flights departing the New York area increased by 8 percent (from 567,000 to
612,000)—the equivalent of adding a mid-sized airport’s flight operations (e.g.,
Albuquerque or New Orleans) without building a single new runway. This
increase was due to various factors:


14
     Congestion in the New York region is not a problem involving only the commercial air carriers. For instance,
     general aviation accounts for less than 3 percent of the flight activity at the three New York airports, but represents
     about 25 percent of New York TRACON’s total operations.
15
     Air carriers decided to use regional jets because they are faster and more cost effective than turboprop aircraft, and in
     2000 the Congress exempted such aircraft from then existing flight limits at LaGuardia and Kennedy.
                                                                                                                         7


     • Emergence of JetBlue Airways in the New York Region: In 2000, JetBlue
       inaugurated operations at Kennedy airport and subsequently added flights at
       both Newark and LaGuardia. Between 2000 and 2008, JetBlue’s departures
       from the three New York airports increased by more than 1,000 percent (5,071
       to 64,881), with the greatest increase at Kennedy.

     • Establishment of Delta Air Lines International Hub at Kennedy: In late 2006,
       Delta Air Lines established an international hub at Kennedy, and the carrier’s
       scheduled departures at the airport jumped by 46 percent (from 43,400 to
       63,400) the next year. 16 The creation of Delta’s Kennedy hub was made
       possible by the ending of FAA’s High Density Rule in 2007.

     • Phase-Out of FAA’s High Density Rule at LaGuardia and Kennedy: In 2000,
       after Congress voted to phase out the High Density Rule flight caps, air service
       began between New York and several new domestic and international markets,
       and air fares in the New York region declined. By the time the caps had
       expired at LaGuardia and Kennedy in 2007, both airports had experienced a
       sizable increase in flight operations. 17 For example, during the summer of
       2007, the average number of daily flights in the New York area increased by
       about 6 percent (3,100 to 3,300 flights) over the previous summer (22 percent
       growth at Kennedy alone).

Resulting Increase in Flight Delays: The increase in flights over the last decade,
coupled with New York’s already dense airspace and constrained airport capacity,
resulted in a 46-percent increase in the number of flights delayed. As shown in
figure 3 below, between 1999 and 2008, the number of on-time flights remained
fairly constant at about 100,000 per summer. However, as the number of flights
grew over the same time period so did the number of delays. The net effect,
therefore, was that any new growth in flight activity translated exponentially into a
higher number and rate of delays. Conversely, as the number of flights declined
(i.e., 2002-2003 and 2009) so did the number and rate of delayed flights.




16
     The increase in Kennedy flight operations also forced FAA to change its management of air traffic (and delays) in
     the New York area. Before the increase, FAA favored operations at Newark and LaGuardia; after the increase, the
     Agency had to balance use of the airspace among the three airports. This, in turn, resulted in additional constraints
     on Newark and LaGuardia flight operations.
17
     Starting in 2000, AIR-21 (Pub. L. No. 106-181) also permitted exemptions to slot controls at LaGuardia for new
     entrants and regional jet operators, resulting in a 26-percent increase in scheduled flights and a 525-percent increase
     in delays from November 1999 to November 2000. In 2001, FAA attempted to alleviate the resulting gridlock by
     reducing the number of new flights, limiting the overall growth to about 14 percent. These caps remained in effect
     beyond the legislated termination of the HDR in 2007.
                                                                                                                        8

            Figure 3. Corresponding Increases in Flight Operations and Delays
            (June through August at Kennedy, LaGuardia, and Newark Airports)


         175,000                Trend in
                              Total Flights
         150,000               and Delays

         125,000

         100,000

           75,000

           50,000
                                                                                          Trend in On-
           25,000
                                                                                          Time Flights

                 0
                      1999     2000     2001    2002     2003     2004     2005    2006     2007     2008     2009

                                                    On-Time Flights       Delayed Flights

            Source: OIG analysis of FAA data




FAA’s Current Flight Caps Are Not an Effective Solution for Reducing
Delays at New York Airports
Following the record delays of summer 2007, FAA reimposed hourly flight caps at
Kennedy and Newark and maintained caps at LaGuardia in 2008. However,
FAA’s goals were to keep delays from getting worse and to reduce their severity,
but not to reduce the number or rate of delays. 18 In effect, FAA set the new caps
near the airports’ maximum capacity in optimum weather conditions and then
allowed air carriers’ schedules to exceed those caps during certain time periods.
As a result, there was little meaningful improvement in New York’s delay
situation during the summer of 2008. In contrast to FAA’s efforts, the three major
London airports set their flight caps with consideration of seasonal weather
variations and a performance target that helps reduce the rate of delays. While
FAA recognizes that its caps may be too high and has taken steps to improve
them, much work remains to ensure the caps can effectively prevent delays from
again rising to record levels.




18
     FAA’s goals were to reduce the average minutes of airport departure delay at Kennedy, keep arrival and departure
     delays from increasing at Newark, and reduce the number of severe delays (i.e., greater than 1 hour) at both airports.
                                                                                                                        9


FAA Designed the 2008 Flight              Table 2. Comparison of Total Hourly Capacity
Caps with Limited Goals: In                Measures with Flight Caps at Three New York
                                                    Airports During Summer 2008
calculating the caps for 2008,
FAA used a model to identify the                         Airport                   Airport
                                                        Capacity          Caps    Capacity
number of hourly flights that                            In Poor       (Scheduled     In
                                          Airport
would achieve its limited delay-                        Weather           and     Optimum
                                                      Conditions Unscheduled) Conditions
reduction goals. The model was                             (IFR)                   (VFR)
based on the highest hourly Kennedy                       64-67            83       75-87
capacity experienced at the New
                                        LaGuardia         69-74            81       78-85
York airports during 2007, when
delays were at their highest. As Newark                   61-66            83       84-92
                                        Source: OIG analysis of FAA data
shown in table 2, the resulting
caps are near the airports’ maximum capacity 19 in optimum weather conditions,
despite the fact that nearly two-thirds of New York delays occur as a result of poor
weather or high volume of flight activity. 20 Moreover, FAA did not establish a
maximum rate of delay as a goal to use in calculating flight caps. Such a goal
would help determine the number of hourly operations an airport could reasonably
sustain without exceeding that goal. In addition, the goal could also be a
benchmark toward which passengers can base expectations and the Agency and
airlines can manage and measure their performance.

FAA’s decision to allow air carrier schedules to exceed the caps during certain
time periods during the day exacerbated the delay situation in New York. To
ensure the caps were enacted prior to the summer of 2008, FAA negotiated with
the air carriers to curtail their planned increases in summer flights and to shift
flights to less congested times. 21 As part of the negotiations, FAA agreed to
accommodate air carrier scheduling practices, by allowing them to exceed flight
caps during certain 15- and 30-minute periods—as long as the hourly caps were
generally achieved. Figure 4 below shows an example of how Kennedy’s
operations exceeded flight caps on one summer day in 2008. Even in optimal
weather (VFR conditions), these peaks—which in some cases are nearly twice
Kennedy’s stated capacity—can produce long lines of aircraft waiting to take off
and taxi-out times approaching 1 hour, the longest of any airport in the Nation. 22



19
     FAA generally allocated 81 operations per hour for scheduled flights at both Kennedy and Newark and 75 at
     LaGuardia—as well as 2 nonscheduled operations per hour at both Kennedy and Newark and 6 at LaGuardia.
20
     Generally, the number of departures and arrivals an airport can handle are contingent upon weather conditions
     specified by FAA’s Visual Flight Rule (VFR) and Instrument Flight Rule (IFR) capacity rates. If visibility levels
     fall below the minimum VFR conditions, then IFR conditions govern flight operations, thus reducing airport
     capacity.
21
     Rather than impose the caps under a lengthy rulemaking process, FAA sought to achieve air carrier acceptance of the
     caps and ensure the carriers had sufficient time to begin marketing summer flights to the public.
22
     In 2010, FAA continues to allow air carriers to schedule flights in excess of the desired caps, although the excess is
     slightly below that experienced in 2008.
                                                                                   10


   Figure 4. Comparison of Flight Schedules with Various Capacity Measures
                         at Kennedy (June 18, 2008)




By setting the reimposed caps near the airports’ maximum capacity and permitting
scheduling peaks, FAA achieved its limited goals for the summer of 2008 with
only modest reductions in the both the average length of airport departure delays
and in the number of flights delayed by more than 1 hour. However, since FAA’s
goals did not include improvements in the delay rate and the average duration of
delayed flights, New York again experienced severe flight disruptions in the
summer of 2008, with more than 40 percent of New York arrivals delayed or
cancelled and arrival delays averaging 71 minutes. Although delays have since
declined due to a drop in air traffic, once the economy recovers and flight volume
returns, delays will likely rise again and increase passenger dissatisfaction with air
travel.

FAA Efforts Could Benefit from London’s Air Traffic Control Lessons
Learned: To gain an international perspective on New York, we observed how
flight caps are planned at London’s three major airports (Gatwick, Heathrow, and
Stansted). These airports together serve a greater number of passengers than the
three major New York airports but experience a lower rate of flight delays. In
London, airports, air carriers, and the air traffic control organization coordinate to
reach consensus on the number of flights that can be accommodated (caps)
without exceeding an acceptable delay target. To determine a realistic hourly cap,
these organizations also base the capacity of the London metropolitan airports on
both winter and summer weather conditions—not year-round optimal conditions
as is the practice for New York. By taking these steps, the London airports
experience about a 20 percent lower rate of delays than their New York
                                                                                                                         11


counterparts by operating 28 percent fewer flights. Yet, London airports handle a
greater number of passengers because air carriers are using larger aircraft.

FAA’s Ongoing Efforts To Improve Flight Caps: FAA recognizes that its
reimposed flight limits at the three New York airports may be set too high and has
taken steps to improve them. In January 2009, FAA announced its plan to reduce
the number of hourly flights permitted at LaGuardia from 75 to 71 operations,
acknowledging that the caps caused significant delays when operating conditions
deteriorated (e.g., during poor weather or periods of excess demand). FAA has
also been recalling and retaining unused and or voluntarily surrendered slots at
Kennedy and Newark where they were negotiated in excess of FAA’s desired
hourly caps. 23 In October 2009, FAA extended the Kennedy and Newark flight
caps for 2 more years and announced that it would reduce flight caps at those
airports if conditions warranted. However, further reducing flight caps or
restricting scheduling practices to smooth schedule peaking within individual
hours will be difficult to achieve due to air carriers’ desire for unlimited access to
the airports and passenger demands for greater service to and from the New York
region. To prevent delay rates from again rising to record levels, FAA will need
to reexamine its flight caps, basing them on realistic airport operating conditions,
air carrier scheduling practices and an acceptable rate of delay.

FAA LACKS THE ANALYTICAL CAPABILITY TO DETERMINE THE
NATIONWIDE EFFECT OF NEW YORK FLIGHT DELAYS
While there is wide agreement within the aviation community that New York
delays have a propagation (i.e., ripple) effect on the rest of the Nation, we found
the actual extent and nature of this impact remains largely unknown. FAA
currently lacks the ability to measure the propagation effect of New York flight
delays, and others in the aviation community have only developed fragmentary
estimates. Various challenges have hampered FAA and others within the aviation
community in measuring this “ripple effect.” These include the sheer volume,
complexity, and limitations of existing flight data and analytic methods as well as
insufficient FAA leadership and coordination of the various groups researching
this issue. FAA has initiated two projects to measure delay propagation, although
both need further development before they will prove useful in the analysis of
delay propagation. Thus, no one fully understands how or to what degree New
York delays impact flights nationwide. A complete understanding of the
dynamics of flight delays and their nationwide impact would aid FAA in its efforts
to manage air traffic, and make sound investment decisions on future aviation
infrastructure improvements.

23
     FAA has not forced air carriers to relinquish slots; instead, it is relying on voluntary surrender of slots above the new
     limits, whereupon they would be retired by the Agency.
                                                                                                                      12


Little Is Known as to Actual Nationwide Impact of New York Delays
While it is generally understood that New York delays affect other flights, FAA
has not reported on this effect, and researchers in academia and the aviation
industry have provided, at best, only limited information on it. For example, in
April 2010, the Air Transport Association (ATA) noted that the three New York
airports represent nearly half of all flight delays among the Nation’s largest
airports. However, the ATA analysis only expresses what portion of nationwide
delays occur as a result of congestion at the New York airports and airspace
(which includes Philadelphia), not their propagation effect. In addition, at a
November 2007 White House press conference, then-Secretary Mary Peters stated
that “… three-quarters of the flight delays are because the plane went into, out of,
or through the New York airspace….” This figure, however, addresses only
chronically delayed flights, a small subset of all flight delays. 24 Neither these
estimates nor other industry and academic research answers a number of important
questions—such as where the delays originated (locally or elsewhere), whether the
New York airports absorb or generate delays, what other airports are affected and
to what degree, and how air carrier scheduling decisions might cause or alleviate
the propagation effect. Any effort to fully understand the propagation effect of
New York delays will have to overcome the limitations of earlier efforts as well as
a number of other challenges.

Various Factors Hamper Efforts To Measure the Nationwide Effect of
New York Flight Delays
In order to understand the propagation effect of flight delays, FAA and other
aviation research groups face several key challenges. These include developing
analytical methodologies for measuring delay propagation; overcoming limitations
in existing delay data sets; and improving coordination between FAA, BTS, and
other aviation and research groups. Until these challenges are overcome, no one
will fully understand the impact of flight delays on the rest of the Nation.

     • Analytical Complexity. The sheer volume and complexity of flight delay data
       pose a significant mathematical and data management challenge. Before an
       analysis of delay propagation can begin, FAA and others must assemble more
       than 10 million annual flight records—each with multiple arrival and departure
       times and causes of delay data elements—into a database of daily aircraft
       itineraries. In addition, they must develop methods to compile, extract, and
       analyze the delay characteristics and follow the flow of initial delays to their
       ripple effect.

24
     The variance in these two estimates is due to the differing methodologies used. For example, the three-quarters
     figure covered only those flights that were chronically delayed 70 percent or more over a 3-month period—a small
     subset of all flight delays. In comparison, the ATA study was restricted to those flight delays at the 35 largest U.S.
     airports and excluded delays caused by air carrier action (e.g., mechanical, customer accommodation, or crew).
                                                                                                                         13


     • Data Limitations. Of the two main databases used by FAA to track flight and
       delay information, neither provides all the necessary information to fully
       measure delay propagation. 25 A critical component of determining the delay
       propagation effect is the ability to track each aircraft’s daily movements using
       its unique tail number. Unfortunately, 1 database, maintained by BTS, only
       contains aircraft tail numbers for the 19 largest domestic passenger air carriers,
       representing about two-thirds of the flights that could be analyzed. In contrast,
       a second database, maintained by FAA, contains more comprehensive
       information on all passenger and cargo aircraft operating both domestically and
       trans-border, but has tail numbers for only 40 percent of these aircraft. There
       are also inaccuracies in the BTS data, though BTS hopes recently implemented
       validation edits will largely identify and correct air carrier reporting errors. 26

     • Insufficient Leadership and Coordination. To date, FAA has not exercised the
       leadership required for bringing the air carriers, academia, and other aviation
       research groups together to develop viable analytic methodologies, useful
       database structures, or common terms of reference. These organizations’ input
       and analytic resources are required to achieve a full understanding of the delay
       propagation phenomena and to develop workable applications for aviation
       stakeholders. In the absence of FAA’s leadership, these groups have made
       some individual efforts at measuring delay propagation, but the resulting
       information has been largely theoretical in nature or of limited application.

FAA Has Only Recently Begun To Examine Delay Propagation Effects
Although FAA has two projects for measuring and tracking delay propagation
(both in New York and elsewhere), these efforts will require more work before
proving useful in analyzing delay propagation. For example, one project,
managed within FAA, is exploring delay propagation as a way to improve FAA’s
air traffic management nationwide. By analyzing the delay pattern of aircraft as
they move about the country, FAA would be able to identify where a delay began
and how it impacted later flights. However, the project’s methodology may
undercount initial delays and overcount delay propagation because it estimates
them through mathematical calculation rather than using actual carrier-reported
causal information. For example, an aircraft could experience an initial delay on
one flight leg due to a mechanical problem and a delay on the next leg due to
weather. Under this methodology, FAA could categorize this example as one
delay event (first leg) with a propagated delay (second leg), instead of two


25
     Although sufficient data exist for FAA and others to continue the study of delay propagation and apply results, this
     effort would be improved if existing data limitations were addressed.
26
     Questions regarding the accuracy of air carrier reported causes of delay have caused some FAA officials to be
     skeptical in accepting the results of delay analysis or reluctant to consider delay propagation in other than theoretical
     terms.
                                                                                                                      14


separate delay events. This project also only measures the minutes of delay
propagation, not the number of subsequently delayed flights.

A second project, undertaken by MITRE Corporation 27 under contract to FAA, is
exploring delay propagation to help improve calculation of the nationwide benefit
from individual airport capital improvement projects. Under this application,
delay propagation data could be used to quantify the ripple effect of delays at an
airport and, thus, determine the potential national (multiplier) impact of delay-
reducing investments at that airport. This second effort also relies on calculating
flight delays and contains similar limitations as the first project. Further, FAA
would need to expand the scope of this project from identifying a multiplier effect
(e.g., minutes of delays) to one that studies the specific characteristics of New
York delays and their ripple effect (e.g., causes, duration, and locations).

Unless FAA Develops Viable Methods To Analyze and Understand
Delay Propagation, It Will Continue To Miss Opportunities To Improve
Air Traffic Management and Investment Decisions
Using detailed and comprehensive information on flight delay propagation would
help FAA identify the location of an initial delay and its effect nationwide. Doing
so would also help the Agency discern between delays that originate at an airport
and those that are merely the ripple effect of delays originating elsewhere.
Moreover, a better understanding of New York’s impact on the rest of the Nation
would help FAA achieve the following specific benefits:

     • Congestion Relief: Based on information about initial causes, FAA could
       more accurately identify and then address underlying problems leading to
       increased congestion. Moreover, it could identify which air carrier practices
       (e.g., scheduling and turn-around times) contribute to or reduce congestion and
       delays at specific airport or on specific routes.

     • Improved Air Traffic Management: FAA could better understand how
       certain delays affect flights locally and nationwide, as well as the effect of its
       air traffic management initiatives such as ground stop and ground delay
       programs. 28

     • More Informed Investment Decisions: Propagation data could improve
       investment decisions by giving FAA and airports more complete information
       on the potential benefits from delay reduction and/or capital improvement
27
     The MITRE Corporation, a not-for-profit organization, manages the Center for Advanced Aviation System
     Development, a federally funded research and development center supporting FAA efforts to address various
     aviation challenges, such as reducing flight delays and managing air traffic.
28
     A ground stop is a halt of departures at origin airports that are destined to a specific, congested airport. A ground
     delay program holds flight at their origins and delays the departure times to slow the pace of arrivals at a congested
     airport.
                                                                                                                    15


       projects. For example, FAA could better prioritize where to deploy new
       equipment and procedures (e.g., RNAV) 29 that would assist FAA in managing
       air traffic and help reduce delays. In other cases, understanding the
       propagation effect of delays would enable FAA to evaluate whether delay-
       reducing investments at a particular airport would also have an impact in
       reducing delays elsewhere in the National Airspace System.

CONCLUSION
The New York region serves as the key domestic and international aviation hub
for the United States. In 2007, over 1.2 million flights passed through the 3 main
airports, transporting 108 million passengers and 2.6 million tons of cargo. Yet,
about 35 percent of flights are delayed each year, which cost New York
passengers and air carriers an estimated $2.6 billion in 2008. 30 These costs,
however, do not stop just in New York, but ripple throughout the Nation. While
delays in the New York area have dropped over the last 2 years, given the region’s
constrained capacity, they are likely to increase again as the global economy
improves and air travel demand returns. For flight caps to have any success in
helping prevent delays from again rising to record levels, FAA and key aviation
stakeholders will need to reexamine flight caps, basing them on more realistic
airport operating conditions and acceptable delay rates. Furthermore, gaining a
fuller understanding of delay propagation will aid FAA in its efforts to reduce
flight delays and congestion, better manage air traffic, and make better investment
decisions.

RECOMMENDATIONS
We recommend that FAA:

1. Reexamine flight caps at Kennedy, LaGuardia, and Newark airports, basing the
   caps on more realistic airport operating conditions, air carrier scheduling
   practices, and a goal towards reducing delays to an acceptable rate. In
   considering an acceptable rate and length of delay, FAA should incorporate the
   views of air carriers, the airport operator, and passenger groups as well as
   lessons learned from other slot-controlled airports.

2. Establish a working group of air carriers, academia, and other aviation research
   organizations to enhance the understanding of delay propagation (e.g., develop
   viable analytic methodologies, useful database structures, and common terms
   of reference).

29
     RNAV (Area Navigation) is a satellite-based aircraft navigation system providing more direct airport routings
     compared to the conventional, ground-based navigation where aircraft are routed from point to point to the airport.
30
     Source: Grounded - The High Cost of Air Traffic Congestion, February, 2009, Partnership for New York City.
                                                                                 16


3. Enhance existing flight delay data by obtaining aircraft tail numbers for
   domestic and international flight operations of U.S. air carriers in order to
   better study and manage the propagation effect of flight delays.

4. Complete development of a viable methodology for measuring the dynamics of
   flight delays at New York (as well as other U.S. airports) and their propagation
   nationwide. This methodology should include the ability to measure both the
   amount of delay time being propagated and the number of subsequent flights
   being impacted.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA a draft copy of this report on August 25, 2010, for comment
and received the Agency’s response on September 29, 2010. FAA fully concurred
with recommendation 2 and partially concurred with recommendations 1, 3, and 4.
Overall, FAA’s response meets the intent of recommendation 2 but only partially
meets the intent of recommendations 1, 3, and 4. Specifically:

 • For recommendation 1, FAA stated it had already incorporated many of our
   recommendations when it established the initial flight caps for Kennedy and
   Newark. However, this does not address our main points that those flight caps
   did little to reduce delays and that FAA established them without an on-time
   performance target. Therefore, FAA must ensure its current evaluation of New
   York flights caps (a) includes a goal of limiting arrival delays to a more
   acceptable rate and length (i.e., below those experienced during the summers
   of 2007 and 2008) and (b) provides passenger groups with greater
   opportunities to participate in this process.

 • For recommendation 2, FAA proposed to host or participate in a forum, within
   1 year, to enhance the Agency’s delay propagation methodologies. While this
   is an important first step, our report points out that FAA will also need to
   provide ongoing leadership in developing and coordinating stakeholders’ (e.g.,
   airlines and academia) research in this field to develop a better understanding
   of delay propagation and workable applications for the industry.

 • For recommendation 3, FAA stated it would pursue data on aircraft tail
   numbers for international flight records. However, FAA still needs to explain
   how it will acquire aircraft tail numbers for those domestic airlines that do not
   currently report this information to the Bureau of Transportation Statistics.

 • For recommendation 4, FAA stated it had developed─and would improve─a
   methodology for measuring delay propagation. We commend FAA’s efforts in
                                                                                17


   this area and recognize that this type of analysis is an evolving science.
   However, we note that the methodology cited in FAA’s response only
   measures delay propagation to assess the benefits of future airport capital
   improvement projects—it does not measure the ripple effects of New York
   delays and their characteristics (e.g., causes, number, duration, and location).
   We request that FAA clarify how it intends to develop these data and
   incorporate them in future improvements to its delay propagation
   methodology.

ACTIONS REQUIRED
FAA provided acceptable actions and timeframes for recommendation 2, and we
consider it resolved but open until the planned actions are completed. We request
that FAA provide our office with a response clarifying its planned actions and
addressing the issues discussed above for recommendations 1, 3, and 4 within
30 days.

We appreciate the courtesies and cooperation of FAA and industry representatives
during this audit. If you have any questions concerning this report, please contact
me at (202) 366-1427 or Darren Murphy, Program Director, at (206) 220-6503.

                                        #

cc: FAA Deputy Administrator
    Chief Operating Officer, Air Traffic Organization
    Assistant Administrator for Aviation Policy Planning
     and Environment
    Director, Audit and Evaluation
    Anthony Williams, AAE-001
    Martin Gertel, M-1
                                                                                                                     18



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit between June 2009 and August 2010 in
accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To determine the principal causes of flight delays in the New York region, we
analyzed data from FAA’s Aviation System Performance Metrics (ASPM) 31
database, Flight Schedule Data System (FSDS), 32 and Operations Network
(OPSNET) 33 as well as from the Department’s Bureau of Transportation Statistics
(BTS). 34 Based on our prior assessments and interviews with agency officials, we
have concluded that these databases are reliable for the purposes of this audit. In
addition, we reviewed the notices and orders that led to the establishment of flight
caps at Newark Liberty and John F. Kennedy International Airports and extended
the existing flight caps at LaGuardia. We interviewed officials from FAA’s Air
Traffic Control Command Center, Office of Performance Analysis and Strategy,
and Office of Aviation Policy and Plans. We also interviewed officials from the
Port Authority of New York and New Jersey as well as JetBlue Airways and
Continental Airlines.

To identify the corresponding effect of New York delays, we reviewed reports,
studies, and research papers from American Airlines, MITRE Corporation,
EUROCONTROL, George Mason University, University of Maryland, and
Massachusetts Institute of Technology. We also analyzed the information
included in FAA’s Delay Propagation database that is currently under
development to determine if any data deficiencies existed.       Finally, we
interviewed officials from MITRE Corporation, EUROCONTROL, National Air
Traffic Services for the United Kingdom, BTS, and FAA’s Office of Policy and
Plans and Air Traffic Organization.




31
     ASPM is an FAA database of air traffic control performance measures that includes flight delays, cancellations,
     scheduled flights, operations, taxi times, and causes for delays.
32
     FSDS is an FAA database of published air carrier flight schedules.
33
     OPSNET is an FAA database of air traffic control movement operations for all towers, centers, and approach control
     facilities.
34
     BTS data include information about air carrier on-time performance, flight delays, and cancellations. They are based
     on data filed each month by the 19 reporting air carriers with the BTS Office of Airline Information as described in
     14 CFR Part 234 of DOT’s regulations.


Exhibit A. Scope and Methodology
                                                                            19




EXHIBIT B. OIG REPORTS AND TESTIMONIES ADDRESSING
NEW YORK FLIGHT DELAYS

• Air Carrier Flight Delays and Cancellations, Report Number CR-2000-112,
  July 25, 2000.

• Airline Industry Metrics─ Trends on Demand and Capacity, Aviation System
  Performance, Airline Finances, and Service to Small Airports, Correspondence
  Number CC-2004-006, January 8, 2004.

• Short- and Long-Term Efforts To Mitigate Flight Delays and Congestion,
  Report Number CR-2004-066, June 17, 2004.

• Airspace Redesign Efforts Are Critical To Enhance Capacity but Need Major
  Improvements, Report Number AV-2005-059, May 13, 2005.

                              ─ Trends in Demand and Capacity, Aviation
• Aviation Industry Performance
  System Performance, Airline Finances, and Service to Small Airports,
  Correspondence Number CC-2005-057, June 30, 2005.

• Aviation Industry Performance─ A Review of Summer 2007 Aviation System
  Performance, Correspondence Number CC-2008-039, December 27, 2007.

•   Status Report on Actions Underway To Address Flight Delays and Improve
    Airline Customer Service, Testimony Number CC-2008-058, April 9, 2008.

•   Observations on Short-Term Capacity Initiatives, Report Number AV-2008-
    087, September 26, 2008.

•   Aviation Industry Performance─ A Review of the Aviation Industry in 2008,
    Correspondence Number CC-2009-039, May 6, 2009.

•   Progress and Remaining Challenges in Reducing Flight Delays and Improving
    Airline Customer Service, Testimony Number CC-2009-067, May 20, 2009.

•   Status of the Aviation Rulemaking Committee’s 77 Initiatives for Reducing
    Delays in the New York Area, Report Number AV-2010-003, October 21,
    2009.

OIG reports and testimonies are available on our website: www.oig.dot.gov




Exhibit B. OIG Reports and Testimonies Addressing New York Flight Delays
                                                                          20



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name                               Title

Darren Murphy                    Program Director

Jerrold Savage                   Project Manager

Stephen Smith                    Senior Transportation Industry Analyst

Mike Dunn                        Auditor

Andrew Sourlis                   Analyst

Teri Vogliardo                   Analyst

Sandy DeLost                     Information Technology Specialist

Andrea Nossaman                  Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                                21




APPENDIX. AGENCY COMMENTS


                     Federal Aviation
                     Administration

Memorandum
Date:            September 29, 2010
To:              Matthew E. Hampton, Deputy Assistant Inspector General for Aviation and
                 Special Program Audits
From:            Clay Foushee, Director, Audit and Evaluation
Prepared by:     Anthony Williams, x79000
Subject:         OIG Draft Report: New York Flight Delays Have Three Main Causes, But
                 More Work Is Needed To Understand Their Nationwide Effect

Both the Department of Transportation (DOT) and Federal Aviation Administration (FAA)
continue to work hard to alleviate aviation congestion and delays. Since Fiscal Year (FY) 2000,
22 airfield projects have opened at 19 of the 35 Operational Evolution Plan (OEP) airports.
These include 16 new runways, 3 taxiways, 1 runway extension, 1 airfield reconfiguration
completed, and 1 airfield reconfiguration two-thirds completed. These projects enable the
potential to accommodate more than 2 million annual operations and decrease average delay per
operation at these airports by about 5 minutes. Eight other projects (3 airfield reconfigurations,
2 runway extensions, 3 new runways) are in the planning or environmental stage at OEP airports
through 2018.

The Next Generation Air Transportation System (NextGen) also is also intended in part, to help
communities make better use of their airports by making air travel more predictable, reducing
delays and greater flexibility to get around weather problems. The implementation of NextGen
technologies is complex and requires investments by both FAA and the industry, who will need
to install NextGen avionics in cockpits. By 2018, many NextGen technologies are planned to be
operational in various regions of the country and users will begin realizing the benefits of those
upgrades.

The economic downturn has resulted in lower passenger demand with a corresponding decline in
overall operations and delays. However, in certain congested areas such as New York, travelers
may still experience delays. FAA is working aggressively to implement operational and structural
improvements so we are prepared to handle the inevitable uptick in traffic in the future.
For example, FAA is continuing work in the New York area to implement precision procedures
such as area navigation and required navigation performance (otherwise known as RNAV/RNP),



Appendix. Agency Comments
                                                                                                  22


airspace redesign and the creation of optimal descent procedures - all of which will result in more
efficient operations and yield environmental benefits. FAA is also continuing to implement
airspace redesign, which will improve the efficiency and reliability of the air traffic operations in
the New York, New Jersey and Philadelphia region. The next phase is expected to come on-line
late next spring and will focus on New York West departures.

FAA also maintains schedule limits on operations at LaGuardia (LGA), John F. Kennedy (JFK)
and Newark airports, and currently has a work group that is reevaluating the current scheduling
orders to ensure they effectively limit delays, while also allowing for maximum passenger
throughput. FAA has also worked with the air carriers and the Port Authority of New York and
New Jersey (Port Authority) to ensure that operations at JFK run as smooth as possible while the
airfield and Bay runway are under construction. Specifically, FAA reached agreements with the
carriers serving JFK to maintain their winter schedules throughout the four-month runway
closure (March-June 2010), which has helped tremendously with the operation of the airport
during this construction period.

Recommendations and Responses

OIG Recommendation 1: Reexamine flight caps at Kennedy, LaGuardia, and Newark airports,
basing the caps on more realistic airport operating conditions, air carrier scheduling practices,
and a goal towards reducing delays to an acceptable rate and length of delay, FAA should
incorporate the views of air carriers, the airport operator, and passenger groups as well as lessons
learned from other slot-controlled airports.

FAA Response: Partially Concur. Kennedy, LaGuardia and Newark airports are currently
operating under short-term orders, which expire in October 2011. As part of our ongoing efforts
to address congestion at these airports, FAA currently has an internal workgroup that is
evaluating the orders at the three New York airports and any proposed changes would be subject
to notice and comment. In particular, the workgroup is evaluating model results, current
scheduling practices and re-evaluating policy goals related to acceptable level of delay. We
anticipate that any potentially recommended changes to the existing schedule limits would be
published for notice and comment by December 2011. The reason for partial concurrence is
because FAA already completed many of the Office of Inspector General's recommendations
when it established the target operational limits for Kennedy and Newark in 2007/2008.
Specifically, the recommendation does not recognize that FAA did use actual airport operating
conditions and worked with MITRE Corporation to model capacity at these airports using every
hour, of every weekday, over many months at the two airports. FAA modeled the impact of
various airline schedules and airport scheduling limits, incorporating variations to the airport
capacity due to weather, runway configurations and other operational factors.

In arriving at these flight limits, FAA incorporated the views of air carriers and the airport
operator. Notice and comment periods have also been provided on the FAA scheduling orders for
the three airports. Establishing scheduling targets requires careful consideration of benefits, costs
and tradeoffs. As our stakeholders frequently point out higher limits provide more opportunities
for market access but result in more delay and lower on-time performance. Low scheduling
targets will improve performance and reduce delays but results in unused capacity and limits
access to the airport.




Appendix. Agency Comments
                                                                                                 23


OIG Recommendation 2: Establish a working group of air carriers, academia, and other
aviation research organizations to enhance the understanding of delay propagation (e.g., develop
viable analytic methodologies, useful database structures, and common terms of reference).

FAA Response: Concur. FAA will continue to work with air carriers, academia, and other
aviation research organizations to increase the usefulness of its existing delay propagation
models. Given the complexities associated with modeling delay propagation, FAA recognizes
that this research is a multi-year effort which will require on-going interaction with industry,
academia, and other stakeholders so as to continually improve modeling capabilities in this area.
FAA is exploring different avenues to engage stakeholders on this issue. Within one year of this
recommendation, FAA will either host or participate in a forum which will focus on enhancing
its delay propagation modeling capabilities.

OIG Recommendation 3: Enhance existing flight delay data by obtaining aircraft tail numbers
for domestic and international flight operations of U.S. air carriers in order to better study and
manage the propagation effect of flight delays.

FAA Response: Partially Concur. From an analytical standpoint, FAA agrees it would be
desirable to expand our delay propagation modeling capability, which currently focuses on
domestic operations by tail number, to include international flight operations of U.S. air carriers.
FAA will work with Bureau of Transportation Statistics (BTS) to determine the feasibility of
obtaining the pertinent international flight information for U.S. air carries and whether
rulemaking would be required. FAA, working with BTS, will make this determination within one
year of this recommendation. If data becomes available, FAA will seek funding to incorporate
this information into its delay propagation models. Within one year of receiving necessary
funding, we will have incorporated the international flight data into the delay propagation models
and will have determined the impact on the published delay propagation multipliers.

OIG Recommendation 4: Complete development of a viable methodology for measuring the
dynamics of flight delays at New York (as well as other U.S. airports) and their propagation
nationwide. This methodology should include the ability to measure both the amount of delay
time being propagated and the number of subsequent flights being impacted.

FAA Response: Partially Concur. FAA has developed a state of the art methodology to measure
delay propagation on an airport, regional, and nationwide basis. As previously discussed, the
science of modeling this complex phenomenon continues to evolve and FAA continues it work in
this area. The report, and these recommendations could better recognize the efforts FAA has
pursued in this regard, and the progress achieved. As written it lends the reader to believe that
FAA has not progressed in this area. FAA considers flight delay propagation modeling an
evolving science, and will pursue improvements continuously.




Appendix. Agency Comments
 Flight Delays in the New York Region and Corresponding Effects Nationwide
                      Section 508 Compliant Presentation

The following pages contains a textual version of Figure 4 of found in this document.
These pages were not in the original document but have been added here to
accommodate assistive technology.

Figure 4. Comparison of Flight Schedules with Various Capacity Measures at
Kennedy (June 18, 2008)

Time Period        Capacity Under        Capacity       FAA Target      FAA Level
                     Instrument        Under Visual      For Caps          of
                        Flight            Flight                        Approved
                     Conditions         Conditions                      Operations
6:00am                  16.75             21.75              20            19
6:15am                  16.75             21.75              20             5
6:30am                  16.75             21.75              20            16
6:45am                  16.75             21.75              20            15
7:00am                  16.75             21.75              20            24
7:15am                  16.75             21.75              20            18
7:30am                  16.75             21.75              20            17
7:45am                  16.75             21.75              20            26
8:00am                  16.75             21.75              20            22
8:15am                  16.75             21.75              20            22
8:30am                  16.75             21.75              20            22
8:45am                  16.75             21.75              20            13
9:00am                  16.75             21.75              20            39
9:15am                  16.75             21.75              20            13
9:30am                  16.75             21.75              20            20
9:45am                  16.75             21.75              20            17
10:00am                 16.75             21.75              20            12
10:15am                 16.75             21.75              20             8
10:30am                 16.75             21.75              20            10
10:45am                 16.75             21.75              20            13
11:00am                 16.75             21.75              20            15
11:15am                 16.75             21.75              20            14
11:30am                 16.75             21.75              20            12
11:45am                 16.75             21.75              20            16
12:00pm                 16.75             21.75              20            18
12:15am                 16.75             21.75              20            10
12:30am                 16.75             21.75              20            14
12:45am                 16.75             21.75              20            26
1:00pm                 16.75       21.75   20   13
1:15pm                 16.75       21.75   20   16
1:30pm                 16.75       21.75   20   17
1:45pm                 16.75       21.75   20   29
2:00pm                 16.75       21.75   20   11
2:15pm                 16.75       21.75   20   15
2:30pm                 16.75       21.75   20   14
2:45pm                 16.75       21.75   20   42
3:00pm                 16.75       21.75   20    8
3:15pm                 16.75       21.75   20   21
3:30pm                 16.75       21.75   20   16
3:45pm                 16.75       21.75   20   33
4:00pm                 16.75       21.75   20   18
4:15pm                 16.75       21.75   20   22
4:30pm                 16.75       21.75   20   21
4:45pm                 16.75       21.75   20   20
5:00pm                 16.75       21.75   20   21
5:15pm                 16.75       21.75   20   19
5:30pm                 16.75       21.75   20   21
5:45pm                 16.75       21.75   20   24
6:00pm                 16.75       21.75   20   22
6:15pm                 16.75       21.75   20   12
6:30pm                 16.75       21.75   20   21
6:45pm                 16.75       21.75   20   26
7:00pm                 16.75       21.75   20   34
7:15pm                 16.75       21.75   20   15
7:30pm                 16.75       21.75   20   23
7:45pm                 16.75       21.75   20   16
8:00pm                 16.75       21.75   20   28
8:15pm                 16.75       21.75   20    8
8:30pm                 16.75       21.75   20   21
8:45pm                 16.75       21.75   20   25
9:00pm                 16.75       21.75   20   31
9:15pm                 16.75       21.75   20   21
9:30pm                 16.75       21.75   20   21
9:45pm                 16.75       21.75   20   16
10:00pm                16.75       21.75   20   36
10:15pm                16.75       21.75   20   18
10:30pm                16.75       21.75   20   17
10:45pm                16.75       21.75   20   15
Source: OIG Analysis of FAA Data
